                                       FACT SHEET
                         Review of Facility Conditions at the
                        Groton, Connecticut, Main Post Office

Introduction            This fact sheet presents the results of our audit of employee
                        working conditions at the Groton, Connecticut, Main Post
                        Office. We conducted this review after receiving allegations
                        from five employees who believed the post office was unsafe
                        and that workers were at risk of injury and illness. This fact
                        sheet contains the background; audit objective, scope, and
                        methodology; prior audit coverage; other safety and health
                        conditions found that were not discussed in the accompanying
                        video report; management’s corrective actions; our
                        recommendations; management’s comments; and our
                        evaluation of their comments.

Background              The Groton, Connecticut, Main Post Office was constructed
                        in 1969, and the Postal Service leased it in 1970. The post
                        office is a one-story masonry building with approximately
                        19,882 square feet primarily consisting of interior space for
                        Postal Service operations and customer services. Beginning
                        in 1993, Postal Service documents outlined serious concerns
                        about the deteriorating condition of the flat roof and
                        subsequent water damage to the interior of the post office.

Objective, Scope, and   The objective of our audit was to determine the validity of
Methodology             allegations concerning unsafe working conditions at the
                        Groton, Connecticut, Main Post Office. Specifically,
                        employees told us they were at risk from the following
                        conditions:

                           •   Leaking roof water.
                           •   Electrical shock and fire hazards.
                           •   Damaged ceiling tiles.
                           •   Poor indoor air quality.
Review of Facility Conditions at                                                    LH-AR-03-010
 the Groton, Connecticut, Main Post Office


                                 To verify the conditions at the Groton, Connecticut, Main Post
                                 Office, we conducted two site visits on November 7 and 15,
                                 2002, and we took photographs and video of potential safety
                                 and health conditions that were present at that time. In
                                 addition, the United States Army Corps of Engineers, experts
                                 in the field of architecture and industrial hygiene, and an
                                 environmental testing company assisted us in this review.

                                 We reviewed applicable regulations, policies, and procedures,
                                 and examined the Groton, Connecticut, Main Post Office’s
                                 safety and health inspection reports, asbestos and lead-based
                                 paint survey, and other documents including correspondence
                                 between Postal Service officials dated from calendar
                                 years 1993 to 2002. We also interviewed Postal Service
                                 management and employees, and state and local officials.

                                 This audit was conducted from November 2002 through
                                 June 2003, in accordance with generally accepted government
                                 auditing standards, and included such tests of internal
                                 controls, as were considered necessary under the
                                 circumstances. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.

 Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                 objective of this audit at this location.




                                                 2
Review of Facility Conditions at                                                    LH-AR-03-010
 the Groton, Connecticut, Main Post Office



                                             AUDIT RESULTS
 Unsafe Working                  During site visits conducted on November 7 and 15, 2002, we
 Conditions                      found the following potentially unsafe working conditions at the
                                 post office:

                                     1.   Evidence of leaking roof water.
                                     2.   Potential electrical shock and fire hazards.
                                     3.   Damaged ceiling tiles.
                                     4.   Evidence of questionable bacteria.
                                     5.   Blocked access to electrical service area.
                                     6.   Mold in delivery vehicles.
                                     7.   Improper maintenance of asbestos floor tiles.
                                     8.   Chemicals stored improperly and lacking
                                          documentation.

 Evidence of Leaking             We found the following problems with the roof at the time of
 Roof Water                      our visit:

                                     •    Water had leaked on at least ten occasions from the flat
                                          roof into many areas of the post office including walls,
                                          ceilings, floors, and electrical fixtures.

                                     •    Standing water of up to 2 inches covered approximately
                                          3,000 square feet of the 19,000 square foot roof.

                                 These conditions primarily resulted from a deteriorated flat
                                 roof that was not draining properly. According to at least
                                 11 Postal Service and external documents, the roof had
                                 sporadically leaked for at least 10 years. Management
                                 acknowledged that 15 roof repairs were made in the last
                                 10 years. We found repairs made from June 1996 to
                                 November 2002, temporarily corrected the specific leaking
                                 problems; however, the repairs altered the roof’s slope
                                 preventing water from reaching the drains and caused
                                 standing water. Management told us that when leaks
                                 occurred, repairs were made in accordance with Postal
                                 Service policy.

                                 Additionally, the Postal Service did not implement
                                 three previous recommendations to replace the roof. For
                                 example, a 1998 study contracted by the Postal Service
                                 categorized the deteriorated condition of the roof as one that
                                 constituted a hazard to life or health, and a hazard to property



                                                   3
Review of Facility Conditions at                                                     LH-AR-03-010
 the Groton, Connecticut, Main Post Office


                                 or continuity of Postal Service operations. In addition, the
                                 report stated, “The existing built-up roof and membrane
                                 reroofing has deteriorated to the point where periodic
                                 maintenance is not sufficient to maintain its integrity." In
                                 December 2002, the firm that conducted the 1998 study stated
                                 it was hard to determine how long the roof would continue to
                                 perform; however, when it became an immediate hazard, “it
                                 could be too late for both occupants and postal operations.”

 Potential Electrical            The water leaks created potential electrical shock and fire
 Shock and Fire Hazards          hazards in many places of the post office. For example, we
                                 saw:

                                     •   Approximately four lights switched off to further reduce
                                         the risk of electrical hazard due to the leaking water.

                                     •   An 8’ x 10’ tarp used to collect and direct leaking water
                                         into buckets on the floor.

                                 These potential hazards have existed since at least
                                 November 1994, and on two occasions, in November 1994
                                 and December 2000, the fire department was called to the
                                 post office because water had leaked from the roof
                                 accumulating on the workroom floor and to check a smoking
                                 ballast.

 Damaged Ceiling Tiles           We observed about 5 missing and 38 stained or damaged
                                 ceiling tiles throughout the post office. Management told us
                                 that 93 of the 1,291 tiles in the workroom were replaced
                                 sometime prior to our visits. Architectural studies conducted in
                                 1998 and 2002 advised the Postal Service to replace the
                                 water damaged ceiling tiles because of their weakened state.
                                 We found that the stained tiles resulted from water leakage
                                 and on three occasions, waterlogged tiles had fallen and
                                 one of them had struck, but did not injure, an employee.

 Evidence of                     The allegation of poor indoor air quality was not substantiated
 Questionable Bacteria           by an independent testing company that found the indoor air
                                 quality within federal standards. However, an additional test
                                 conducted by the company, found the presence of
                                 questionable bacteria in stagnant water closely located to a
                                 fresh air intake duct on the roof. Because of the unknown
                                 risks associated with the bacteria, we agree the company’s




                                                  4
Review of Facility Conditions at                                                   LH-AR-03-010
 the Groton, Connecticut, Main Post Office



                                 recommendation to remove the stagnant water as soon as
                                 possible, and in the interim, treat it with chlorine would
                                 prevent any future growth.

 Management’s                    Postal Service officials were aware of the deteriorating
 Knowledge of the                conditions at this post office. For example, in 1998, the
 Deteriorated Roof               District Administrative Services Office paid over $4,000 for an
                                 independent architectural inspection to use during an
                                 upcoming lease renewal. However, facilities service office
                                 officials renewed the 10-year lease on May 20, 1998, 1 day
                                 prior to the start of the firm’s inspection and 2 weeks before
                                 the firm issued its final report recommending replacement of
                                 the roof.

                                 We found the deteriorated conditions at the post office
                                 occurred because of insufficient communications between
                                 Groton, Connecticut, Main Post Office, district, and facility
                                 service office management. Postal Service officials said that
                                 recently revised procedures should prevent a similar
                                 occurrence in the future.




                                                 5
Review of Facility Conditions at                                                   LH-AR-03-010
 the Groton, Connecticut, Main Post Office


 Other Safety and                During our November 2002 site visits, we also observed the
 Health Conditions               following safety and health conditions that were not in the
                                 original allegations.

 Blocked Access to               We saw large metal doorframes blocking access to electrical
 Electrical Service Area         circuit breakers and main shutoff switches in the electrical
                                 service area. This prevented immediate access to these
                                 systems in the event of an electrical emergency.

 Mold in Delivery                We found mold in numerous delivery vehicles located at the
 Vehicles                        post office. According to an independent test, adverse health
                                 conditions for drivers may have existed because of the
                                 allergenic, infectious, and toxic effect the mold may have on
                                 some individuals. The Postal Service had not cleaned the
                                 delivery vehicles for 7 months despite regulations that required
                                 monthly vehicle cleaning. Postal Service officials told us the
                                 contractor responsible for this service had been ill.

 Improper Maintenance            The post office did not always use the proper floor buffer pads
 of Asbestos Floor Tiles         to maintain its asbestos floor tiles. Some buffer pads used
                                 were too abrasive and may have potentially caused asbestos
                                 fibers to become airborne. In addition, the floor buffer was not
                                 adequately marked and we could not determine if it met
                                 federal standards. We also found that post office
                                 management was not performing required periodic asbestos
                                 inspections. These inspections may have identified the
                                 deficiencies we found.

 Chemicals Improperly            A storage cabinet containing hazardous and flammable
 Stored and Lacking              chemicals was closely located to an electrical panel. This
 Documentation                   created an environment where sparks from the panel could
                                 have ignited the chemicals.

                                 In addition, the post office was not maintaining documentation
                                 for hazardous chemicals, such as a current inventory and
                                 supporting Material Safety Data Sheets, as required by federal
                                 standards. As a result, employees did not have the
                                 information needed to utilize and store the chemicals in a safe
                                 manner or provide the appropriate first aid during an
                                 emergency.




                                                 6
Review of Facility Conditions at                                                     LH-AR-03-010
 the Groton, Connecticut, Main Post Office




 Corrective Actions                 Postal Service management took the following corrective
 Taken                              actions:

                                        •    Removed the metal doorframes.

                                        •    Replaced the existing buffer.

                                        •    Relocated the chemical cabinet.

                                    In addition, Postal Service management told us they would:

                                        •    Immediately clean the vehicles and ensure they were
                                             cleaned on a regular basis.

                                        •    Use the appropriate buffer pads for floor
                                             maintenance.

                                        •    Prepare the proper documents for chemical storage.

 Recommendations                    We recommend the Northeast Area Operations and vice
                                    president, Facilities:

                                        1. Inspect as soon as possible the roof on the Groton,
                                           Connecticut, Main Post Office for the purpose of
                                           determining whether the roof requires either
                                           substantial improvement or replacement.

                                        2. Assess the adequacy of the existing electrical system
                                           and make improvements where necessary.

                                        3. Replace all stained, damaged, or missing ceiling tiles.

                                        4. Establish management controls to ensure repair and
                                           safety needs are identified and resolved in a timely
                                           manner.

                                    Finally, we recommend the Connecticut District manager,
                                    instruct the Groton postmaster to establish controls to
                                    ensure:

                                        5. Delivery vehicles are cleaned on a monthly basis in
                                           accordance with Postal Service Policy.




                                                   7
Review of Facility Conditions at                                                      LH-AR-03-010
 the Groton, Connecticut, Main Post Office



                                        6. Periodic asbestos inspections are performed as
                                           required by the Environmental Protection Agency and
                                           Postal Service policies.

                                        7. Full compliance with Occupational Safety and Health
                                           Administration standards and Postal Service policies
                                           regarding the maintenance of building materials
                                           containing asbestos.

 Management’s                       Management agreed with our recommendations, however,
 Comments                           they did not agree that the video and language used in the
                                    fact sheet reflected the true conditions at the Groton Main
                                    Post Office. Management also stated the decision to renew
                                    the lease on this facility was a proper business decision.
                                    Management further stated that they believed the video was
                                    not an appropriate vehicle for this audit.

                                    Management acknowledged, however, that the building had
                                    maintenance issues typical of an older facility operating with
                                    a below-market lease. However, they said the maintenance
                                    issues were being addressed and the facility provided safe
                                    conditions for Postal Service employees and customers.
                                    Specifically, management said the roof has been inspected
                                    and management will meet with the lessor in June to
                                    negotiate an agreement to have the roof replaced.
                                    Management also stated that an electrical engineer would
                                    review the electrical system in June and will submit a report
                                    reflecting any actions necessary. They stated that a
                                    separate project was being considered to improve the
                                    energy efficiency of the lighting. Management also told us
                                    that many of the ceiling tiles had been replaced and the
                                    replacement of the remaining tiles would occur when the
                                    roof has been replaced. In addition, management stated the
                                    ongoing consolidation of the facility-related responsibilities of
                                    the former district administrative services offices into the
                                    Northeast Facilities Service Office had streamlined the
                                    process for identification of needed repairs. Finally,
                                    management stated that the district manager instructed the
                                    postmaster of Groton to establish controls to ensure delivery
                                    vehicles are cleaned on a monthly basis, periodic asbestos
                                    inspections are performed as required, and that full
                                    compliance with Occupational Safety and Health




                                                  8
Review of Facility Conditions at                                                     LH-AR-03-010
 the Groton, Connecticut, Main Post Office



                                    Administration standards and Postal Service policies
                                    regarding the maintenance of building materials containing
                                    asbestos would occur.

 Evaluation of                      Management’s actions taken or planned should correct the
 Management’s                       issues identified in this report.
 Comments
                                    We disagree however that the video and language used in
                                    the fact sheet did not reflect the true conditions at the Groton
                                    Main Post Office. In addition, we believe a video was the
                                    best medium to provide a clear understanding of the issues
                                    and/or physical conditions and that the characterization of
                                    the video and fact sheet accurately reflect the conditions at
                                    the facility. Also, while we believe the decision to renew the
                                    lease might have been proper from an economical
                                    standpoint; the safety of employees and customers should
                                    be paramount when making all business decisions.




                                                  9
Review of Facility Conditions at                       LH-AR-03-010
 the Groton, Connecticut, Main Post Office


                     APPENDIX. MANAGEMENT’S COMMENTS




                                             10
Review of Facility Conditions at                  LH-AR-03-010
 the Groton, Connecticut, Main Post Office




                                             11
